LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

February 22, 2021

Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE:

5614 Connecticut Avenue, NW #307
Washington, DC 20015

MICHAEL MADISON V. STATE OF OHIO

Dear Sir or Madam:
I hereby certify that at the request of counsel for the Petitioner, on February 22,
2021, I caused service to be made pursuant to Rule 29 and the Temporary Order of
April 15, 2020, on the following counsel for the Respondent:
RESPONDENT:
Michael C. O'Malley,
County Prosecutor
Gregory Ochocki
Asst. Prosecuting Attorney
Cuyahoga County Prosecutor's Office
Justice Center
1200 Ontario Street
Cleveland, Ohio 44113
216-443-7800
gochocki@prosecutor.cuyahogacounty.us
This service was effected by depositing one copy of a Petition for a Writ of
Certiorari in an official “first class mail” receptacle of the United States Post Office as
well as by transmitting digital copies via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal

6ZRUQDQGVXEVFULEHGEHIRUHPHWKLVQGGD\RI)HEUXDU\

